No. 20-6210

IN THE SUPREME COURT OF THE UNITED STATES
___________________________________
DEONDRE ARTHUR STATEN,
Petitioner,
v.
RONALD DAVIS, WARDEN,
Respondent.
__________________________________
ON PETITION FOR WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEAL FOR THE NINTH CIRCUIT
__________________________________
REPLY TO BRIEF IN OPPOSITION
TO PETITION FOR WRIT OF CERTIORARI
__________________________________

JERRY L. NEWTON*
9341 Holt Road
Carmel, California 93923
Telephone: (831) 626-2797
Facsimile: (831) 626-8538
Counsel for Petitioner
*Counsel of Record

NORMAN D. JAMES
888 Coal Pit Road
Corvallis, Montana 59828
Telephone: (406) 961-1498
Facsimile: (406) 961-1499
Counsel for Petitioner

TABLE OF CONTENTS
Page
I.

PCLA Claims . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

1

II.

Ineffective Assistance Of Counsel Claim . . . . . . . . . .

4

III.

Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

9

-i-

TABLE OF AUTHORITIES
Page(s)
Cases
Adarand Constructors Inc. v. Mineta
534 U.S. 103, 122 S.Ct. 511, 151 L.Ed.2d 489 (2001) . . . . .

3

Harrington v. Richter
562 U.S. 86, 131 S.Ct. 770, 178 L.Ed.2d 624 (2011) . . . . . .

2, 8, 9

Lucia v. S.E.C.
138 S.Ct. 2044, 201 L.Ed.2d 464 (2018) . . . . . . . . . . . . . . . .

3

National Collegiate Athletic Assn. v. Smith
525 U.S. 459, 119 S.Ct. 924, 142 L.Ed.2d 929 (1999) . . . . .

3

Sexton v. Beaudreaux
138 S.Ct. 1555 (2018) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

2

Shinn v. Kayer
141 S.Ct. 517 (2020) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

2

Staten v. Davis
962 F.3d 487 (9th Cir. 2020) . . . . . . . . . . . . . . . . . . . . . . . . .

5, 6, 7

Strickland v. Washington
466 U.S. 668, 104 S.Ct. 2052, 80 L.Ed.2d 674 (1984) . . . .

5

Woodford v. Visciotti
537 U.S. 19, 123 S.Ct. 357, 154 L.Ed.2d (2002) . . . . . . . . .

2

Zivotofsky v. Clinton
566 U.S. 189, 132 S.Ct. 1421, 182 L.Ed.2d 423 (2012) . . . .
-iiWoods v. Donald
575 U.S. 312, 135 S. Ct. 1372, 191 L.Ed.2d 464 (2015) . . .

2

3

Statutes
Title 28 United States Code § 2254(d) . . . . . . . . . . . . . . . . . . . . passim
-ii-

REPLY BRIEF
I.

PCLA CLAIMS
The Court of Appeals disposed of the PCLA claims by theorizing under §2254(d)(2)

that the California Supreme Court could have summarily denied them on the basis that
there was no evidence to support the threshold allegation that the PCLA contract had
anything to do with the appointment of counsel in the first instance. No consideration
was given to the merits of the claims.
Throughout this litigation a challenge to the fact of appointment under the
contract had never been made and consequently that factual issue had not been argued
or briefed by either party in the many years of state and federal proceedings. The Ninth
Circuit’s published decision was not only “out of the blue” but was contrary to the
express finding of the District Court following extensive briefing and hearings in that
court. 1
Staten argues that not only would it have been unreasonable for the California
Supreme Court to have summarily dismissed the claims on such a finding, but that it was
unreasonable of the Court of Appeals to even theorize that the state court could have or
would have so decided on the record before it and in clear contravention of state law,
process, procedures and rules governing appointment of indigent counsel and for
determining the existence of a prima facie case for relief. Respondent’s Brief In

1

At oral argument, the panel, having previously alerted counsel that its interest would be in the ineffective
assistance claim, directed no questions or comments of any kind to the PCLA claims.

-1-

Opposition to Staten’s petition essentially ignores the question presented, or even any
derivation of it, as well as Staten’s analysis of applicable facts and law supporting his
position, and instead argues the merits of the claims—something that the Ninth Circuit
panel avoided altogether.
This Court has interpreted federal review of a state court’s summary disposition
of a habeas claim under §2254(d) to require that a court “determine what arguments or
theories ... could have supported the state court's decision.” Harrington v. Richter, 562
U.S. 86, 102, 131 S.Ct. 770, 178 L.Ed.2d 624 (2011). In accomplishing that task a court is
to "focus[] on what a state court knew and [theoretically] did," applying a presumption
“that state courts know and follow the law.” Woods v. Donald, 575 U.S. 312, 316, 135
S.Ct. 1372, 1376, 191 L.Ed.2d 464 (2015) (quoting Woodford v. Visciotti, 537 U.S. 19, 24,
123 S.Ct. 357, 154 L.Ed.2d 279 (2002)(per curiam)). Unless the state court’s decision, or
determination of facts, so analyzed, is “unreasonable,” federal relief is barred.
This Court has repeatedly cautioned against a §2254(d) analysis that
is actually de novo masquerading as deference to a finding of the state court, or in this
case a theoretical finding of the state court. See, e.g., Shinn v. Kayer,141 S.Ct. 517, 522,
524 (2020)(Ninth Circuit “essentially evaluated the merits de novo, only tacking on a
perfunctory statement at the end of its analysis asserting that the state court's decision
was unreasonable” (quoting Sexton v. Beaudreaux, 138 S.Ct 2555, 2560 (2018)).
Although Shinn and Beaudreax are cases in which the Court of Appeals had found that
the state court’s decision was unreasonable, Staten contends that this Court’s

-2-

interpretation of AEDPA’s requirements is equally applicable to an analysis resulting in
a decision that the state court finding was reasonable. This Court is urged to take the
opportunity to squarely hold that where, as here, the Court of Appeals has conducted an
essentially de novo review that ignores what the state court actually “knew and did” as
well as what its laws required it to do, tacking on a perfunctory statement of deference
under §2254(d) does not cure the error whether the resulting erroneous decision is that
the state court’s decision was reasonable or unreasonable.
Finally, Respondent’s invitation to this Court that it consider the merits of the
PCLA claims is clearly contrary to precedent. When this Court reverses on a threshold
question, it “typically remand[s] for resolution of any claims the lower courts’ error
prevented [it] from addressing.” Zivotofsky v. Clinton, 566 U.S. 189, 201–202, 132 S.Ct.
1421, 1430–1431, 182 L.Ed.2d 423 (2012), citing, Adarand Constructors, Inc. v. Mineta,
534 U.S. 103, 110, 122 S.Ct. 511, 151 L.Ed.2d 489 (2001) (per curiam )( Supreme Court is a
court of final review not first view); National Collegiate Athletic Assn. v. Smith, 525
U.S. 459, 470, 119 S.Ct. 924, 142 L.Ed.2d 929 (1999)(“ordinarily ‘we do not decide in the
first instance issues not decided below’"); Accord, Lucia v. S.E.C., 138 S.Ct. 2044, 2051,
201 L.Ed.2d 464 (2018)(“We ordinarily await thorough lower court opinions to guide our
analysis of the merits” (internal quotation marks and citation omitted)).
Here the Court of Appeals erred in deciding the PCLA claims on a threshold
question that prevented it from considering whether §2254(d) bars relief on the merits of
the claims. This Court is urged to reverse and remand to the Court of Appeals for that

-3-

purpose.
II.

INEFFECTIVE ASSISTANCE OF COUNSEL CLAIM
Staten’s petition asserts that under Section 2254(d)(2) of Title 28, United States

Code, the California Supreme Court’s decision denying the claim for ineffective
assistance of counsel during the guilt phase was an unreasonable determination of the
facts in light of the evidence presented to the California Supreme Court in both the direct
appeal and the state habeas proceedings. As noted in the respondent’s opposition to the
petition, the district court’s characterization of the evidence presented to the California
Supreme Court of Staten’s guilt as “voluminous” and “compelling” (Opp. 16) is wrong.2
As wrong as was the district court’s finding that DNA testing confirmed that there was a
trail of Staten’s blood found throughout the house (1 App. 81).3
The prosecutor at trial did not think his case was voluminous and compelling. As
he conceded to the jury in his opening statement, his case was entirely circumstantial:
“. . . I will tell you right now there is no direct evidence; that (sic) is an
entirely circumstantial case. [¶] That means that there are a number of
bits and pieces of information, some from witnesses directly who saw and
heard certain things. Some from the examination of physical evidence that

2

“Opp” refers to the Respondent’s Brief In Opposition, followed thereafter by page reference.

3

As noted in the Petition, p. 12 fn. 7, there was no testimony at trial about DNA testing. Rather, the only
evidence pertaining to blood found at the crime scene was a stipulation regarding blood samples recovered from the
crime scene stating that two of the samples were not from Staten’s father, but “could have” come from Staten’s
mother or Staten himself, eight samples did not come from Staten’s mother or father but “could have” come from
Staten, and three of the samples did not come from Staten or his father but “could have” come from Staten’s mother.
In other words, the blood samples not identified as coming from Staten’s mother or father “could have” come from
anyone, including the Eastside Dukes.

-4-

together we believe will lead you to the conclusion that Mr. Staten was
involved in these murders. [¶] And I use the term involved because I do
not necessarily expect to prove to you that Mr. Staten, that is, the
defendant, killed these people himself or by himself. [¶] But that he was
involved in the planning and the commission of those killings which as you
will ultimately be instructed in the law, still makes him responsible for
those killings.” (6 RT 810)(emphasis added).

The majority and minority opinion concede that under the first prong of
Strickland v. Washington, 466 U.S. 668, 104 S.Ct. 2052, 80 L.Ed.2d 674 (1984), trial
counsel rendered deficient performance by failing to present evidence from five
witnesses – neighbors and friends – who told trial counsel before the trial that members
of the Eastside Dukes street gang had claimed credit for murdering Staten’s parents.
Staten v. Davis, 962 F.3d 487, 495 (9th Cir. 2020). The panel split on the second prong of
Strickland – the question of prejudice. The majority opinion held as follows:
“If we reviewed only for prejudice under Strickland, Tyre’s [trial counsel]
failure to introduce the witness testimony [the five witnesses who heard
the Eastside Dukes take credit for the murders] might be enough to
‘undermine [our] confidence in the outcome.’ [citing Strickland]. But
when §2254(d) applies, that is not the question. Richter, 562 U.S. at 105,
131 S.Ct. 770. Instead the question is whether the state court reasonably

-5-

could have concluded that the evidence of prejudice fell short of
Strickland’s deferential standard. Id., at 111-12, 131 S.Ct. 770.
Here there were reasonable grounds for the California Supreme Court to
conclude that the omitted testimony would not have altered the outcome.”
Id., at 500.
The dissenting opinion disagreed with the majority on the question of prejudice by
finding that the testimony of the five witnesses who heard the Eastside Dukes take credit
for the murders would have altered the outcome. The dissent noted that this was indeed
a circumstantial evidence case. “There were no witnesses to the murders; no murder
weapon was found; blood samples from the crime scene were inconclusive.” Staten v.
Davis, 962 F.3d at 502. The dissent noted that the evidence presented to the California
Supreme Court in the habeas petition with regard to the five third-party culpability
witnesses was “direct and compelling.” Id., at 502. The majority opinion characterized
the evidence against Staten thusly: “the prosecution’s case was not overwhelming” but
nevertheless “compelling.” Id., at 497-500. The dissenting opinion reviewed five
evidentiary items relied on by the majority as compelling evidence and reached a
contrary conclusion: (1) Staten’s handprint was on a mirrored wall below the “ESD kills”
graffiti. Of course, Staten had lived in this house with his parents for years; (2) blood
samples recovered from the crime scene “could have been Staten’s.” These same
samples could have been from anyone else, including members of the Eastside Dukes
gang; (3) Staten was seen prior to the murders as wearing jeans and a subsequent

-6-

search of his residence failed to uncover any jeans that would have fit Staten. The
prosecution claimed that Staten got rid of the jeans he was wearing to conceal evidence
of the crime. However, Staten had at least three pairs of jeans and the search failed to
find any of his jeans, not just the ones he was wearing the night of the murders; (4)
Staten told his cousin, who was crying the night of his parents’ funerals that it was “time
to party and get high.” However, there was also evidence that Staten was distraught and
emotionally affected by his parents’ death; and (5) Staten was seen opening his parents’
safe after their deaths. However, his parents’ wills were in the safe. After reviewing
these five items of evidence, the dissenting opinion noted “the evidence implicating
Staten in the murders was fairly weak.” Id., at 504.
The majority opinion stated that if their review was limited to Strickland, the
failure to call these five witnesses who heard the Eastside Dukes claim credit for the
murders might have been enough for them to make a finding of prejudice. Staten v.
Davis, 962 F.3d at 500. However, because of Section 2254(d) and this Court’s decision in
Harrington v. Richter, 131 S.Ct. 770, 178 L.Ed.2d (2011), the majority felt that they were
compelled to make a finding of a lack of prejudice. Staten would argue that Richter
involved an interpretation of Section 2254(d)(1), which lifts the bar of Section 2254(d) in
cases where a reviewing court issues a decision which is contrary to or an unreasonable
application of prior decisions of this Court. Here the issue is an evidentiary one and
involves an interpretation of Section 2254(d)(2), which lifts the bar of Section 2254(d) in
cases where the reviewing court issues a decision that is based on an unreasonable

-7-

determination of the facts in light of the evidence presented, in this case, to the
California Supreme Court.
The touchstone of Richter is whether or not, in this case, the decision of the
California Supreme Court, in finding no prejudice in the failure to call the five third-party
culpability witnesses, was unreasonable. Even if the state court decision is wrong,
Richter holds that the decision will be upheld unless the state court decision is
unreasonable. Harrington v. Richter, 130 S.Ct. at 786. As noted, Richter was decided
under Section 2254(d)(1), which lifts the bar of 2254(d) if the state court decision is an
unreasonable application of this Court’s decisions. Whether or not the state court
decision is unreasonable depends on whether or not “fairminded jurists could disagree
on the correctness of the state court’s decision. Id., at 786.
Similarly, a state court decision would be unreasonable under Section 2254(d)(2)
if the state court decision was unreasonable in light of the evidence presented to the
state court. Here, the state habeas petition presented the testimony of five witnesses
(and one expert witness) that the Eastside Dukes murdered Staten’s parents. The state
court denied the claim of ineffective assistance and Staten submits this decision was
unreasonable in light of the evidence presented. The Circuit court decision unanimously
held that the first prong of Strickland had been met – trial counsel’s performance in
failing to put on the evidence of third-party culpability was deficient/unreasonable. As
for the second prong, the dissenting opinion found prejudice based on the evidence
submitted to the state court. In so doing, the dissenting opinion necessarily found that

-8-

“fairminded jurists” could not disagree with the correctness of the state decision. The
majority came close to agreeing with the minority opinion, but did not do so.
Since the California Supreme Court denied Staten’s state habeas petition without
a reasoned decision relating to the facts presented in the state petition, Richter requires
that reviewing court “theorize” arguments to support a finding that the summary denial
was reasonable. It’s one thing for a federal court to look at the reasoning of the state
court decision denying a Strickland claim based on the evidence presented in the state
court proceeding. It is quite another for the federal court to try to guess the state court’s
reasoning in a summary denial and then speculate if in the universe of judges, one might
find a judge who would agree with the state court denial. The theories that the majority
speculated might uphold the reasonableness of the summary denial were effectively put
to rest by the minority opinion’s thoughtful and careful analysis of the actual evidence
submitted to the California Supreme Court. Accordingly, even under Richter, Section
2254(d)(2) lifts the bar under Section 2254(d) as no fairminded jurist could ever conclude
that the evidence of third culpability in this specific case would not have affected the
jury’s ultimate decision.
III.

CONCLUSION
For the foregoing reasons, Staten respectfully requests that this Court grant his

Petition for Writ of Certiorari.
Dated: February 8, 2021

s/ ________________
*JERRY L. NEWTON
s/_________________
NORMAN D. JAMES
-9-

*Counsel of Record

-10-

